<html>
<title> - HOW BEST TO IMPROVE BUS SAFETY ON OUR NATION'S HIGHWAYS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                     HOW BEST TO IMPROVE BUS SAFETY
                        ON OUR NATION'S HIGHWAYS

=======================================================================

                                (112-35)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-928 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
VACANCY

                                  (ii)










                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Ferro, Hon. Anne S., Administrator, Federal Motor Carrier Safety 
  Administration.................................................     8
Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety....................................................     8
Palmer, Major David L., Texas Department of Public Safety, and 
  Vice President, Commercial Vehicle Safety Alliance.............     8
Pantuso, Peter, President and CEO, American Bus Association......     8
Parra, Victor S., President and CEO, United Motorcoach 
  Association....................................................     8

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ferro, Hon. Anne S...............................................    36
Gillan, Jacqueline S.............................................    57
Palmer, Major David L............................................    94
Pantuso, Peter...................................................   100
Parra, Victor S..................................................   109

                       SUBMISSIONS FOR THE RECORD

Responses to questions:

  Ferro, Hon. Anne S., Administrator, Federal Motor Carrier 
    Safety Administration........................................    49
  Palmer, Major David L., Texas Department of Public Safety, and 
    Vice President, Commercial Vehicle Safety Alliance...........    99
  Pantuso, Peter, President and CEO, American Bus Association....   105
  Parra, Victor S., President and CEO, United Motorcoach 
    Association..................................................   122

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 
                     HOW BEST TO IMPROVE BUS SAFETY
                        ON OUR NATION'S HIGHWAYS

                              ----------                              


                         MONDAY, JUNE 13, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 2:30 p.m., in Room 
2167, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the committee) presiding.
    Mr. Mica. Good afternoon. I would like to call this hearing 
of the House Transportation and Infrastructure Committee to 
order. Today's hearing is entitled, ``How Best to Improve Bus 
Safety on Our Nation's Highways.''
    The order of business today will be opening statements by 
Members, and then we have a panel of witnesses assembled today 
that will testify about the subject at hand. The order of 
business to proceed is I will begin with my opening statement, 
we will yield to other Members, and then we will try to 
expedite hearing from our witnesses of which we will hear from 
all of them and then take questions afterwards.
    I am pleased to be with you this afternoon. And I will 
begin by trying to lay some groundwork with my opening 
statement.
    I welcome our witnesses and Members today. Thank you for 
coming back, too, I know the House isn't in session until a 
little bit--well, it is in session but not voting until later 
tonight. And the reason for this hearing is actually, I think, 
very important. We will, in a few weeks, we hope to roll out 
legislation that dramatically reestablishes, sets new policy, 
for various modes of transportation.
    As some of you may know, we plan to roll out the new 
transportation legislation in two phases. Starting on 
Wednesday, we will have a rollout of a draft of a passenger 
rail reform bill. We are going to introduce a separate piece of 
legislation dealing with that particular provision. We do have 
some provisions that are rather dramatic and a change in the 
way things are currently conducted with our major passenger 
rail provider, and that is Amtrak, and we want a full 
opportunity for, again, a new direction in passenger rail to be 
fully aired and also included in a separate bill which we will 
see if we have adequate support in the House and Senate to move 
forward as part of the larger measure.
    The balance of the multimodal bill will be rolled out a few 
weeks afterwards. And we are doing it in a little bit different 
fashion. We started, as you know, hearing testimony from around 
the United States and started in Mr. Rahall's district in 
Beckley, West Virginia. We went as far as the Pacific Ocean and 
probably two or three dozen hearings around the country, here 
in Washington, to try to craft and assemble the best ideas for 
any reforms necessary or that people could provide the 
committee with. We ended up actually in this room, we had a 
little libation and pizza with Members and discussed some of 
the basic parameters for the legislation, and during the past 
few weeks, our staff have been working on incorporating 
provisions for both the passenger rail segment and also for the 
balance of the modes in a legislative vehicle.
    We, again, hope to have that rolled out soon. But as they 
complete that work, we wanted to make certain that we had the 
very best provisions possible for bus safety.
    Mr. DeFazio, I want to thank him; I want to thank Mr. 
Rahall and others for cooperating and pulling this hearing 
together. Before we conclude the provisions of that bill, Mr. 
DeFazio had done a hearings previously on passenger bus safety 
and I think it is absolutely vitally important that we have the 
latest, most up-to-date input from some of those involved with 
this matter before us as we conclude and finalize the drafting 
of provisions for our larger bill.
    This all has been highlighted, unfortunately, by some very 
tragic, dramatic accidents that have taken place with some of 
our buses, our passenger buses. We had a horrible accident on 
March of 2011 on the New Jersey Turnpike, we had another 
horrendous accident in New York with 15 fatalities, injuries in 
these incidents. We have had, again, unfortunately, in North 
Carolina, another horrible accident in the Greensboro, North 
Carolina, area where four passengers were killed and 53 others 
injured.
    So, the purpose of the hearing is to look at our current 
laws, our regulations, and the administration, those provisions 
that we currently have in statute or in rules, and make certain 
that we have the very best measures in the bill that we are 
drafting. We have taken ideas from both sides of the aisle in 
our preliminary work, and hopefully we will have some 
additional input today because, again, one fatality is far too 
many.
    Now, let me say, too, as I conclude, that the industry 
overall does have a very excellent safety record. Bus 
operations transport between 750 million and 800 million 
passengers a year, and that we have very few fatalities per 
mile traveled and we have one of the greatest safety records, 
particularly among the well known and legacy bus passenger 
companies. Unfortunately, that is not the case with many of the 
other operators, and we don't have an exact number, I will ask 
for the number of operators, but that troubles me too that we 
don't have that data. How can we monitor if we do not have the 
exact data, the Federal Motor Carrier Safety Administration we 
will hear from representatives at that agency, responsible for 
some of the Federal enforcement, administration of the laws, 
and also our States are vital players, and we need to make 
certain that they also have in place, again, the very best 
safety provisions so that any and all accidents can be 
prevented. It may be impossible, but it should be our goal.
    So, unfortunately, we are brought here by a series of bus 
tragedies that have captured the attention not only of Congress 
but the Nation, and we want to make certain on the eve of 
finalizing legislation that will deal with that subject that we 
have the best possible provisions.
    I had noticed that even over the weekend, I am told that 
Federal Motor Carrier Safety Administration has closed down a 
couple of operators, marginal at best, operators. I am glad to 
hear that, but when you have--and I understand that they were 
actually transporting people under the bus, I don't know if it 
was in the luggage area or what, but that is not an acceptable 
means of operation. And if necessary, we will provide in law 
or, again, working with our State partners, whatever measures 
are necessary to make certain that people are transported on 
buses safely throughout the United States.
    So that is our goal. That is our reason for this hearing. I 
appreciate, again, our witnesses, and hopefully, we will come 
out of this hearing a little bit more knowledgeable and a 
little bit more prepared to finalize the important legislation 
we are about to craft and submit.
    I will say, too, as we go forward with this process, in 
closing, whether it is the passenger rail segment or the bill, 
not only do I want the Democrat minority Members to have a full 
opportunity for participation, but also other Members of 
Congress and the public and the industry and others who are 
affected by the law and any organizations that, again, support 
safety and good transportation for the United States of 
America.
    So we will have a full opportunity to participate on 
Wednesday. We will be web casting, I believe, at 11 o'clock and 
people can go to our Web site and participate in the rollout of 
a first section of the bill, and then in several weeks, the 
same procedure will be followed. We will also have a number you 
can call. You will have the ability as public or interested 
parties to also ask questions as we roll out these new 
provisions in law.
    So, again, we want full participation. And I am pleased 
that Members are able to be with us, again, on short notice and 
our witnesses.
    With that, I would like to yield to the ranking member of 
the subcommittee, Mr. DeFazio. And this is a full committee 
hearing. I thought it was important that we bring it to the 
full committee level. And I am so pleased that he would come 
back and, again, continue his hard work to make certain that 
bus passenger safety is a priority. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for 
bringing this important issue forward. I think it is 
particularly timely before we move forward with authorization 
because clearly, some new authority is needed; and perhaps some 
mandates--dare I say that word here in a Republican Congress. 
But when we deregulated interstate commerce for buses, we had 
sort of an absurd level of regulation where they had to declare 
every route by section, by highway, by turn-off, they had to 
file all of their rates and different rates for different seats 
or whatever and different schedules. But the intention of 
deregulation was to bring about competition, not to kill 
people. And that is where a total deregulatory environment 
fails us.
    We do have the Federal Motor Carrier Safety Administration, 
and since I last held hearings on this, I am pleased to see 
that they have stepped up the number of inspections and 
enforcement. But given--what we are told, and we will get into 
this in the hearing--the level of new entrants, it seems 
impossible to track an ever-changing group of characters.
    Only a very, very small percentage are those who would put 
people in the baggage compartment, have incompetent or 
exhausted drivers, drive buses with bald tires, failed brakes, 
causing fires and other problems. It is a very, very small 
minority in the industry.
    But the industry, those who are legitimate in the industry, 
both the associations and others, should draw together to work 
with us to figure out a way to get these people out and keep 
them out. Because when they kill people, people just associate 
it with the entire industry even though the industry itself is 
very, very safe. It is a few bad actors.
    And that is the key here, and that is what I hope comes out 
of this hearing, is we figure out a way to keep these people 
out, if they are in, to get them out, and to vigorously 
prosecute them when they have committed violations of the law.
    I think a number of our State partners have failed us in 
this. Some States just allow these gypsies or whatever you want 
to call them, Chinatown buses, these fly-by-night folks to 
present a certificate saying they have inspected their own 
buses and their buses are OK and the State says, oh, if you say 
your buses are OK, your buses are OK. Other States are more 
rigorous. I think we may need to set a higher bar here in 
authorization for the States. And we can have a carrot-stick 
approach, too.
    Many States have, I understand, and we have limited funds, 
have diverted all their money into truck inspection and safety. 
That is a problem too. So maybe we need to look at the levels 
of funding. And, of course, the proposed levels of funding 
under the Ryan budget would be a dramatic reduction in funding 
for the Federal Government and Federal pass-throughs to the 
States to enforce safety, which would mean more people would 
escape scrutiny that they should have so we can find them and 
put them out of business.
    And then there is this whole thing of morphing, which the 
agency seems to be dealing with or trying to deal with, but it 
seems like perhaps more authority is needed there where these 
people are morphing and, in this case, of this bad actor who 
killed people in Virginia, they morphed very quickly into 
another company and were continuing to operate. We have got to 
figure out a way to get at that so they can't morph, they can't 
continue to operate under any guise, the people who are 
responsible for these substandard operations and for killing 
people. That is the bottom line here.
    And I think it is something we would all have in common, 
and I would welcome the industry representatives as well as the 
safety representatives as well as the regulators to give us a 
vision on how we are going to get there.
    We are not going back to the ICC, we are not going to 
regulate every route, every fare, every thing, no one is 
proposing that. But how is it in a deregulated environment we 
do get the level of safety and security we want, and legitimate 
operators? So I welcome the testimony from the panel. Thank 
you, Mr. Chairman.
    Mr. Mica. Thank you for your excellent comments and again 
for your strong advocacy on behalf of bus safety, Mr. DeFazio.
    Let me yield to one of my senior Members, the gentleman 
from North Carolina, Mr. Coble first.
    Mr. Coble. Thank you, Mr. Chairman. I will be very brief. I 
know of no issue that is more significantly important than 
promoting safety on our Nation's highways, and that is the 
purpose of this hearing. I thank you all for being here. Mr. 
Chairman, I thank you and the ranking members for having 
scheduled it and I yield back.
    Mr. Mica. Thank you. And it is good to see you back. And 
you are looking pretty good. You have been fighting a little 
bit of that skin cancer and we are very pleased to see you. You 
looking fantastic this week.
    Mr. Coble. I have not yet reached the threshold of 
Hollywood handsome, but I am working on it.
    Mr. Mica. Ready to go star in any show.
    The gentleman from Pennsylvania, Mr. Shuster, you are 
recognized.
    Mr. Shuster. Thank you, Mr. Chairman and thank you for 
holding this important hearing today.
    In this committee and for me, safety is a top priority, 
across all the modes of transportation we have to strive to 
make them safer because that is absolutely critical.
    First, I just want to say to those folks who have lost 
their loved ones and their families of those that have been 
injured, you have our deepest sympathy. But it is important to 
note that intercity motorcoach industry including schedule 
service and charter tour operations is an extremely safe mode 
of transportation. In total, our Nation has approximately 
35,000 motorcoaches that provide over 750 million passenger 
trips annually with a safety record of .03 fatalities per 100 
million miles traveled. That is according to the National 
Safety Council. It is the safest way for passengers to move 
around this country. So they have had a record that has been 
safe, we have certainly had some fatalities here recently. And 
we have got to make sure, as the ranking member said, to get 
those bad actors off the road. So there is room for us to 
improve.
    As I said, the recent accidents have highlighted the issues 
regarding enforcement. We have to make sure that the best 
trained drivers are out there transporting our citizens safely 
around the country.
    I am particularly interested in hearing from our witnesses 
regarding how we can keep unsafe or rogue bus operators off the 
Nation's highways. May 31, 2011, a bus crashed near 
Fredericksburg, Virginia, killed 4 passengers and injured 53 
others. Sky Express, the company that has been operating that 
bus, has had numerous safety violations. And, in fact, they 
were under an extension when--of their violations to conform to 
what the FMCSA had laid down for them.
    Again, they had that accident, that 10-day extension. But 
today they are operating under a different name. We have got to 
figure out a way to, as I said, keep those rogue operators, 
those people that continually violate or consistently violate 
safety standards, to make sure that they are off the highways.
    I appreciate the steps that Secretary LaHood and the 
Department of Transportation started in 2009 and in recent 
weeks have built upon that to ensure that bus travel is as safe 
as possible, and we must evaluate the effectiveness of these 
steps as we go forward. We want to ensure that the U.S. DOT and 
FMCSA have the appropriate necessary authorities to ensure 
safety and look forward to the testimony from the FMCSA today.
    I also want to point out that our Nation's motorcoach 
industry is largely a small business, family-owned industry, 95 
percent of motorcoach companies operate fewer than 25 
motorcoaches. And we must ensure that we take a balanced 
approach to this. We want to make sure the highest level of 
safety, we want to protect those people that are using the 
services by rooting out bad actors. But this is a small 
business, family-owned industry that we can't take a broad 
brush and paint them all because they are committed to making--
95 percent of them or more, committed to making sure that they 
are transporting passengers in a safe manner. So we have to 
focus on that and make sure that we do it in a way that is not 
going to hurt them in this already weak economy.
    I want to briefly mention the legislation that I proposed, 
H.R. 1390, the Bus Uniform Standards and Enhanced Safety Act. 
The legislation focuses on increasing oversight and 
enforcement, ensuring one of the best, most well-trained able 
drivers transport passengers and improving motorcoach safety 
standards based on sound scientific research, testing and 
analysis, not on emotion. We have got to make sure when we are 
doing these things that it makes sense scientifically. The 
bottom line is that we must get the bad actors off the road. So 
I am looking forward to hearing testimony today for your ideas, 
and again, appreciate the chairman holding this extremely 
important hearing today.
    Thank you, and I yield back.
    Mr. Mica. I am pleased to yield to the gentleman from 
Indiana, Mr. Bucshon.
    Dr. Bucshon. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing today and I thank the 
ranking member. I took advantage of the motorcoach system when 
I was in college riding it too and from my college town to my 
small town in Illinois. And I know how important it is to the 
people in Indiana, since I am in a fairly rural State and the 
people do take advantage of the motorcoach system.
    It is, however, also very important to continue to look at 
the safety, realizing that we do have some bad actors out there 
that do compromise a system which, for the most part, is an 
extremely safe way for people to travel, even in light of the 
recent tragic crashes that have resulted in loss of life.
    So thank you for holding this hearing. I am looking forward 
to hearing the testimony so that we can continue to make this 
mode of travel very safe for our citizens. And with that, I 
yield back. Thank you.
    Mr. Mica. I thank the gentleman.
    Mr. Harris, the gentleman from Maryland is recognized.
    Dr. Harris. Thank you very much, Mr. Chairman. And I want 
to echo my colleague from North Carolina who clearly one of the 
greatest functions we could have is to keep our highways safe, 
and that includes keeping our bus transportation safe. 
Representing a rural district, pretty clearly, my district will 
depend upon bus transportation. We do want to keep it safe.
    I would just ask that we don't do what has been so trendy 
in the past, which is that when something like this happens, we 
come up with a whole new series of regulations that punish the 
good actors almost more than the bad actors. We can't afford, 
my colleague from Pennsylvania points out correctly that a lot 
of the bus companies are, in fact, small bus companies. They 
are the small businesses that can thrive. Two of my daughters 
took interstate bus trips within the past month. The one that 
took one over the weekend, the air conditioning ran out, which 
although it is not a safety issue, it certainly is not 
comfortable, but it was a safe bus trip. They both felt safe 
taking that mode of transportation. They trusted the carriers. 
And we need to continue helping the good actors and certainly 
regulating against the bad actors, but again avoiding the 
temptation of creating a set of regulations that paints with a 
very broad brush an industry that really has a very admirable 
safety record overall.
    And, again, Mr. Chairman, I thank you very much for holding 
the hearing. And I yield back the balance of my time.
    Mr. Mica. If all Members have gained recognition, we will 
proceed with our panel of witnesses. And again, I thank them 
for coming in on somewhat short notice, but I believe this will 
be a very important hearing, again, as we try to craft and 
finalize provisions in a new 6-year authorization.
    Our witnesses today start out with Anne Ferro, who is the 
administrator of the Federal Motor Carrier Safety 
Administration; Major David Palmer, Texas Department of Public 
Safety, on behalf of the Commercial Vehicle Safety Alliance, 
thank you for being with us; Mr. Peter Pantuso, president and 
CEO of American Bus Association; Mr. Victor Parra, president 
and CEO of United Motorcoach Association; and Ms. Jacqueline 
Gillan, and she is vice president of Advocates for Highway and 
Auto Safety.
    I thank all of the witnesses for being with us.
    Normally, what we like you to do is try to limit your 
testimony to 5 minutes. You could submit, just request through 
the chair, additional information, documentation or information 
that you would like to be made part of the record, and we will 
do that. And we will also withhold questions until we have 
heard from all of the witnesses, and then we will go through 
and provide the panel with the questions from Members.
    So with those ground rules, again, I welcome you. And let's 
start off and hear from our Federal administrator, the Federal 
Motor Carrier Safety Administration of the United States 
Department of Transportation.
    Welcome, and you are recognized.

 TESTIMONY OF HON. ANNE S. FERRO, ADMINISTRATOR, FEDERAL MOTOR 
  CARRIER SAFETY ADMINISTRATION; MAJOR DAVID L. PALMER, TEXAS 
  DEPARTMENT OF PUBLIC SAFETY, AND VICE PRESIDENT, COMMERCIAL 
  VEHICLE SAFETY ALLIANCE; PETER PANTUSO, PRESIDENT AND CEO, 
 AMERICAN BUS ASSOCIATION; VICTOR S. PARRA, PRESIDENT AND CEO, 
 UNITED MOTORCOACH ASSOCIATION; AND JACQUELINE S. GILLAN, VICE 
        PRESIDENT, ADVOCATES FOR HIGHWAY AND AUTO SAFETY

    Ms. Ferro. Chairman Mica, Ranking Member DeFazio, thank you 
for the opportunity to speak today. This year has been the 
worst period in recent history for motorcoach safety, with 6 
crashes resulting in 25 deaths and numerous injuries just since 
January.
    My deepest condolences go to the families who have lost 
loved ones in these crashes. And I join the employees of FMCSA 
and our State enforcement partners in taking these losses to 
heart. It is exceedingly frustrating that despite tighter 
safety standards and dramatic increases in the number of 
inspections and enforcement actions that we are taking that the 
risks to passengers continues from a few bad actors.
    FMCSA's safety mission is our number one priority, and we 
are fully engaged in an all-out crackdown investigation into 
illegal passenger carriers. We have a comprehensive 
investigation underway specifically in the case of the tragic 
Sky Express crash which occurred May 31st in which four women 
were killed.
    When we found out that Sky Express was attempting to 
operate and sell tickets even after we had shut them down, we 
issued a cease and desist order. On the same day, we subpoenaed 
the records of three Internet Web sites that sell tickets for 
Sky Express and other bus companies. The informal leasing 
practices of some motorcoach companies allows them to skirt 
safety rules moving equipment and drivers among companies with 
valid DOT numbers. And unregulated Web sites broker and sell 
tickets with no transparency to the public.
    We are shutting down unsafe carriers as quickly as our 
authority permits. Just since January, we have declared 18 bus 
companies unsatisfactory, that is, issued an out-of-service 
order for those 18. We have another 15 pending that are in 
their appeal period, and that means they must stop operating. 
And if a carrier or its drivers and vehicles present a severe 
risk, we don't wait for the 45-day appeal period that is 
allowed for motorcoach carriers. We declare them an imminent 
hazard, and we shut them down immediately.
    This past week we used our imminent hazard authority to 
shut down three companies, including one in Michigan that has 
already been mentioned, that had put passengers in the cargo 
hold. The behavior by these few is absolutely outrageous, and 
we have got to stop it.
    Transportation Secretary Ray LaHood has had his eye on 
motorcoach safety since 2009, when he charged FMCSA and NHTSA 
to develop and implement comprehensive motorcoach safety action 
plan. The actions within this plan address many NTSB 
recommendations, including electronic on-board recorders, 
better use of inspection violation data, a ban on texting and 
cell phone use, and stronger oversight of drivers' medical 
qualifications and drug and alcohol test results.
    FMCSA has proposed, or is close to final rule or programs 
in all of those areas. But we do need additional authority as 
some have already mentioned. Thus, we have provided technical 
assistance to the committee with regard to several 
recommendations that would strengthen our authority over these 
bad actors. First, is to allow us to conduct en route 
inspections and our law enforcement partners at the State 
level, not just restrict us to inspections on motorcoach 
companies at points of origin and destination. Second is to 
establish a Federal successor liability standard to enable us 
to more quickly and surely shut down reincarnated carriers. 
Third is to require full safety audits before a company can 
receive its passenger carrier authority.
    The fourth is to raise the penalty for violations by bus 
companies that attempt to operate illegally to $25,000 per 
violation. It is currently $2,000 with a cap at 11. And lastly, 
allow us to regulate passenger ticket sellers. We refer to them 
as brokers. We currently regulate freight brokers. We regulate 
household goods brokers. We have no authority over passenger 
carrier brokers.
    Mr. Chairman, again, thank you for holding this hearing 
today. We greatly appreciate the spotlight on bus safety. Our 
commitment at FMCSA has never been higher. And I look forward 
to answering any questions you may have.
    Mr. Mica. Thank you for your testimony.
    And we will hear now from Major David Palmer, and he is 
with the Texas Department of Public Safety and testifying today 
on behalf of Commercial Vehicle Safety Alliance.
    Welcome, and you are recognized.
    Mr. Palmer. Chairman Mica, Ranking Member Rahall, members 
of the committee, thank you for holding this hearing. Let me 
say at the outset that on behalf of CVSA and its members, we 
have pledged a renewed emphasis on bus safety. A step that we 
can immediately take at no additional cost is to lift the 
current restriction in the law that prohibits en route roadside 
bus inspections. SAFETEA-LU enacted this restriction which has 
removed a critical tool designed to immediately identify driver 
and mechanical issues, safety issues, hampering enforcement's 
efforts.
    We commit to you if this restriction is lifted, we will 
immediately encourage all of our State members to put resources 
towards en route bus inspections and to take aggressive 
enforcement action when warranted. This step will provide an 
immediate infusion of enforcement activity to enhance bus and 
highway safety.
    The results of a recent bus safety strike force is ordered 
by a number of State Governors with encouragement assistance 
from FMCSA has resulted in a significant number of buses and 
drivers being placed out of service for mechanical or driver 
violations. These strike forces generally included safety 
inspections at origins or destinations.
    We are firm believers that many more lives could be saved 
and injuries avoided if en route inspections were, once again, 
permitted to allow States to conduct these inspections when and 
where necessary. Since the so-called curbside operators such as 
Sky Express do not typically operate out of a fixed place of 
business or terminal, the most effective way to inspect them is 
through random en route inspection program. Just this past 
Friday, the Maryland State Police stopped four Sky Express 
buses operating on the Capital Beltway. Although at the time 
they were being moved because of repossession by the bank and 
not under Sky Express' authority, since they had been placed 
out of service, it so happened that two of the drivers did not 
have commercial drivers licenses, two did not have medical 
certificates, and all four did not have logbooks, all of which 
are out of service conditions.
    This is just one of many examples of why en route 
inspections are necessary.
    Mr. Chairman, I would ask how many more are out there?
    Enforcement is a major component of bus safety, but not the 
only one. When it is necessary to close down a passenger 
carrier operating illegally, the full force and authority of 
FMCSA in conjunction with State enforcement is necessary. When 
unscrupulous activities are discovered, criminal prosecution 
must be considered and pursued.
    Additionally, State enforcement and oversight is necessary 
through the inspection and audit processes to uncover potential 
passenger carrier drivers and equipment problems.
    Finally, when it comes to specific safety standards such as 
crash worthiness, NHTSA must aggressively implement safety belt 
and other safety systems requirements.
    Chameleon carriers are a significant problem that must be 
dealt with more aggressively. FMCSA's vetting process has been 
an important tool in helping to identify and take action on 
carriers who are ``changing their stripes.'' FMCSA, working 
cooperatively with the States, must be given authority to 
transfer past safety performance activity from one carrier to 
another when it is discovered they are substantially the same 
operation.
    FMCSA must also be given more authority over brokers. 
Companies that purchase transportation for customers need to be 
held accountable for not conducting the proper due diligence 
for safety. Brokers discovered not doing so and hiring unsafe 
operators need to be shut down.
    Another significant issue is bus fires. A Volpe 
transportation study completed in 2009 showed that a bus or 
motorcoach is lost to a fire every 2 days in the United States. 
Enforcement can help mitigate this problem by conducting more 
roadside inspections where we can inspect brakes, tires and 
wheels, which are the origin of many of these fires.
    We support the provisions in both the House and Senate bus 
safety bills that require a safety audit and compliance review 
of all interstate passenger carriers and State-based safety 
inspections for all commercial passenger carrying vehicles. 
Each State must also have a bus safety and enforcement program 
that is appropriate for the needs of that State.
    As you might expect, by directing more of their efforts 
towards bus safety, States face the potential need for 
additional resources and funding. What we don't want to happen 
is by focusing more on bus safety and enforcement, it comes at 
the expense of other critical commercial vehicle safety and 
enforcement programs.
    Unlike trucking companies, intercity passenger carriers 
have been exempt from any hours of service changes in recent 
years. Since driver fatigue seems to have been a contributing 
factor in a number of recent bus crashes, we recommend FMCSA 
study whether the current hours of service rules for bus 
drivers are adequate and if warranted based on data and 
analysis, propose necessary changes.
    In closing, and to reiterate a previous statement, if 
Congress chooses to, once again, enable en route bus 
inspections, the CVSA will commit to assisting the States and 
FMCSA by immediately conducting en route inspections as well as 
continuing strike forces and other enforcement activities 
throughout the country. We believe this is the most appropriate 
and effective response to immediately impact bus safety.
    Mr. Chairman, this concludes my remarks, and I will be 
happy to answer any questions.
    Mr. Mica. Thank you.
    And we will hear next from Peter Pantuso, president and CEO 
of the American Bus Association. Welcome, and you are 
recognized.
    Mr. Pantuso. Thank you, Mr. Chairman. ABA is the trade 
association for the over-the-road bus industry and for the tour 
and travel industry, all of whom have a deep interest in 
safety. Our motorcoach members operate nearly 60 percent of all 
the coaches on the road today. ABA shares this committee's 
concern and their frustrations over unsafe motorcoach 
companies. And, Mr. Chairman, I cannot overemphasize the 
concern or the disgust that ABA has over the manner in illegal 
companies continue to operate.
    These companies are not part of the American Bus 
Association. More importantly, we are also encouraged by the 
work of Administrator Ferro and her team that they have done to 
seek out unsafe companies and put them out of service.
    Making bus travel safer is at the top of our agenda. The 
bus industry continues to be one of the safest modes. However, 
as was pointed out, even one fatality is too many. Today we ask 
for more effective regulations and for more enforcement.
    ABA was an early and enthusiastic supporter of Secretary 
LaHood's motorcoach safety action plan. We believe in 
strengthening State bus inspection programs, enforcing medical 
qualifications for drivers and using technology to enhance 
motorcoach safety.
    The lack of dedicated Federal and State funding for bus 
inspections leads to inconsistent enforcement, making it too 
easy for carriers to reopen after they have been put out of 
business, too easy for financially marginal companies to obtain 
authority, and still too easy for individuals to obtain a 
commercial driver's license with a passenger endorsement.
    The lack of consistent and adequate enforcement of current 
Federal regulations must be addressed today.
    When Secretary LaHood issued the action plan, he declared, 
and I quote, ``a robust compliance and enforcement program is 
critical to ensuring motorcoach carriers operate safely.''
    We certainly applaud the stepped-up enforcement over the 
last couple of months and a near record number of motorcoach 
companies being put out of business putting unqualified drivers 
and their equipment out of service and declaring some an 
imminent hazard. Certainly, FMCSA has done an excellent job of 
vetting new entrants into the system.
    We welcome the New York Police Department's effort to 
inspect, to ticket and to tow unsafe buses in the recent tragic 
accidents. But one-time programs are too rare and they are 
certainly too spotty. It is consistent, effective enforcement 
that is the most vital factor in motorcoach safety.
    The data shows that 54 percent of motorcoach fatalities 
from 1999 to 2009 were accidents caused by either unsafe or by 
illegal companies.
    FMCSA needs additional staffing and money to inspect bus 
operations. Funding for commercial motor vehicle inspections is 
largely via the Federal Government's MCSAP program. And we 
think a certain percentage of MCSAP funds should be 
specifically allocated for bus inspections.
    If States are unwilling or they are incapable of managing 
vigorous bus inspection programs that meet the Federal 
standards, then we believe a portion of those MCSAP money 
should be used to hire third-party inspectors. As it stands 
now, perhaps 8 or 10 States have very good effective inspection 
programs. This inequity must end. The bus inspection programs 
must be uniform so as not to create safe havens for illegal 
operators.
    We must raise the safety bar for passenger carriers. While 
FMCSA has made gains in vetting and visiting new carriers 
sooner, we would certainly like to see a query into the fitness 
of an operator before the first passenger ever boards the bus. 
We believe that Congress should require an applicant background 
check for drivers, especially those with a passenger 
endorsement on their CDL. And when FMCSA has determined that a 
carrier presents an imminent safety hazard and issues an out-
of-service order, they also need congressional authority to not 
only close the operation, but make sure the facilities are 
locked up and make sure the vehicles are impounded.
    ABA recommends that FMCSA undertake more consumer awareness 
as was begun on May 5th with the Secretary's consumer 
checklist. And we also believe a more friendly database, the 
safer system and the SMS system is appropriate for consumers.
    And, finally, regarding seatbelts in coaches, Mr. Chairman, 
ABA and its members support seatbelts in new buses following 
the testing that was done by the Department of Transportation 
that they already undertook to determine what type of belt the 
seat design and the anchorage that would be appropriate to save 
lives.
    We are also enthusiastic supporters of H.R. 1390, and we 
thank the members of this committee who have cosponsored that 
bill.
    Our industry continues to grow. We will provide the safest, 
the most cost effective and environmentally efficient mode of 
transportation, but we can only do it if current regulations 
are enforced equally and all carriers.
    I thank you, Mr. Chairman, and I will answer any questions 
you and the committee might have.
    Mr. Mica. Thank you, and we will get back to you on that.
    Now we will hear from Mr. Victor Parra, president and CEO 
of United Motorcoach Association. Welcome. You are recognized, 
sir.
    Mr. Parra. Thank you, Mr. Chairman, Ranking Member DeFazio 
and members of the committee, I appreciate you calling this 
hearing today and the opportunity to appear before you. The 
committee has a long and distinguished record of promoting 
safety on our roadways. On behalf of the United Motorcoach 
Association, it is my goal to provide the committee with our 
perspective on the factors that contribute to our industry's 
notable safety record, but also our goal of improving on that 
record.
    Founded in 1971, the United Motorcoach Association 
represents the full spectrum of bus and motorcoach operations, 
from small family charter and tour to nationwide scheduled and 
commuter service operations. The United States Small Business 
Administration, as Mr. Shuster pointed out, estimates that over 
90 percent of the motorcoach operators are, in fact, small 
businesses.
    UMA is deeply saddened by the recent motorcoach accidents, 
and we extend our deepest sympathies to the victims, their 
families and all those who are affected. And while it is a 
fact, as Mr. Mica pointed out, that our industry has the safest 
record, one fatality is one fatality too many. That is why one 
of our primary objectives is to promote safety and compliance 
in this industry. We do this through several initiatives. 
First, we have our Bus and Motorcoach Academy, which is 
accredited through the College of Southern Maryland. We do 
training for drivers as well as motorcoach companies to instill 
a safety culture in their organization. We have safety 
management seminars that we hold at the NTSB, National 
Transportation Safety Board's, training center. Of course our 
annual conference and regional and State meetings are also 
heavily ladened with safety training programs. UMA is a member 
and sponsor of the Commercial Vehicle Safety Alliance, an 
active member in their passenger carrier committee and we 
routinely volunteer to assist the National Transportation 
Safety Board in any of their investigations as we did following 
the accident involving Worldwide Tours.
    UMA has long advocated for strong and improved enforcement 
of existing Federal and State motor carrier safety regulations 
for our vehicles and drivers. Additionally, UMA has long 
supported initiatives based on sound science and research that 
truly improves safety, many of which are included in Mr. 
Shuster's bill, which is cosponsored by members of this 
committee, Congresswoman Eddie Bernice Johnson, Congressman Tim 
Holden and Congresswoman Jean Schmidt, as well as other Members 
of Congress.
    The bill contains reasonable and attainable guidelines that 
enhance the National Transportation Safety Administration's 
efforts to promulgate new rules that will improve motorcoach 
occupant protection.
    In addition to Mr. Shuster's bill, in August 2007, NHTSA 
announced NHTSA's approach to motorcoach safety in a series of 
evaluations including occupant retention, window glazing, 
emergency egress, stability control, roof strength and 
flammability. In December 2007, NHTSA conducted a first-ever 
motorcoach crash test, and subsequent to that promulgated 
regulations for three-point seatbelts on all new coaches. And 
in fact, UMA supports that initiative.
    In December 2010, the Federal Motor Carrier Safety 
Administration, FMCSA, launched its long awaited comprehensive 
safety analysis 2010. FMCSA and their State partners now have 
the capability to more readily identify noncompliant carriers 
and target problematic carriers with the goal of preventing 
accidents before they occur.
    Just months into implementation, UMA concludes CSA is 
already altering behaviors and producing results. We are most 
satisfied that this program will serve the long-term needs of 
the enforcement community.
    UMA has deep reservations regarding legislative efforts 
that could intentionally harm small entrepreneurs' entry as new 
carriers. While some often use the term ``illegal'' and ``rogue 
carriers'' and ``new entrants'' in the same reference, there 
are no direct parallels UMA is aware that would signify new 
entrants afford a disproportionate risk to the traveling 
public, and indeed, anecdotal evidence suggests otherwise.
    Having said that, UMA enthusiastically supports the 
Secretary's efforts to establish minimum knowledge requirements 
for companies who seeks to transport passengers and have 
steadfastly recommended classroom and exam requirements 
followed by compliance audits within 45 days after conditional 
operating authority is granted.
    While UMA continues to support limited driver and vehicle 
inspections to terminal and destination locations that do not 
interfere with passenger safety or schedules, we do not and 
have never supported allowing drivers or vehicles to continue 
operating unsafely. However, we remain concerned about any 
random inspections, roadside inspections. Just this past week a 
76-year-old woman from Minnesota died when her car in which she 
was driving hit the backend of a motorcoach that was stopped 
alongside an I-95 State trooper. The trooper narrowly escaped 
injuries. Fortunately, no passengers on the coach were 
seriously injured.
    Congress has wisely protected motorcoach passengers from 
roadside accidents, and those protections should remain.
    In conclusion, we appreciate this opportunity to submit 
testimony regarding these matters and stand ready to contribute 
to ongoing efforts to enhance safety of bus and motorcoach 
operations. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    And now we will hear from Jackie Gillan. And she is the 
vice president of the Advocates for Highway and Auto Safety. 
Welcome, and you are recognized.
    Ms. Gillan. Thank you and good afternoon. Thank you very 
much for the opportunity to testify. I first testified before 
the Subcommittee on Highways and Transit in 2006 about 
motorcoach safety problems. Again, in 2007, I testified after 
the Bluffton University baseball team crash in Georgia. Both 
hearings highlighted the need for Congress to take action to 
improve Federal oversight of the industry as well as direct DOT 
to issue overdue safety standards for occupant protection. Five 
years later, after those hearings, there have been more than 
108 crashes resulting in at least 136 deaths and thousands of 
injuries. It is time for Congress to act and pass the 
Motorcoach Enhanced Safety Act, H.R. 873, sponsored by 
Representative John Lewis and others. This overdue legislation 
will direct the DOT to implement lifesaving recommendations of 
the NTSB that have languished for over 40 years.
    Those who travel by motorcoach rather than air do not 
expect to be treated as second class citizens when it comes to 
safety and they do not expect the motorcoach to be a death trap 
in the event of a crash. H.R. 873 is supported by Advocates, 
consumer health and safety groups and the families of those 
killed and injured in motorcoach crashes.
    Why is this legislation needed? Further delays and excuses 
can no longer be tolerated and have contributed to needless 
deaths and injuries. This is not just Advocates' opinion, but 
the opinion of NTSB as well.
    Congress must step in now and ensure the safety 
improvements that NTSB has recommended are implemented.
    H.R. 873 will protect consumers before they buy a ticket 
and board the bus and after they take their seat and the trip 
begins. For example, there are no substantive training 
requirements in Federal regulations for entry-level commercial 
drivers, including motorcoach drivers. Compare that to a recent 
proposed FAA rule issued at the direction of Congress that 
requires at least 1,500 hours of flight time before a pilot can 
operate a commercial flight.
    Also, safety ratings for motorcoach companies are 
incomplete, out of date or simply not available. In my 
testimony, I reference efforts by Advocates' staff to find out 
about the safety of Florida motorcoach companies. There are 143 
companies headquartered in Florida, 36 companies have no safety 
ratings at all, 5 companies are operating with conditional 
ratings indicating there are safety deficiencies. And among the 
102 companies with satisfactory safety ratings, only 2 have 
ratings in all of the categories.
    H.R. 873 will require that every motorcoach carrier 
receives a safety rating within 3 years.
    Recent crashes also indicate that driver fatigue and 
violation of Federal hours of service rules are common. It is 
time that FMCSA revise the hours of service rule for motorcoach 
drivers and gets tough on companies that push drivers to exceed 
driving limits and falsify their logbooks.
    The Virginia crash that occurred last week has also 
revealed a dirty little secret that safety advocates have 
warned about for years. Giving motorcoach companies with an 
unsatisfactory safety rating 45 days or longer to continue 
operating and carrying passengers is simply unacceptable. 
Passengers boarding Sky Express had absolutely no idea the 
dangerous risks they faced choosing that carrier. In the 48 
days during which Sky Express operated with an unsatisfactory 
rating, the company may have exposed as many as 100,000 
passengers to dangerous and deadly operating conditions.
    The NTSB has been loud and clear in the agency's ``Most 
Wanted Recommendations'' that motorcoach occupants need better 
protection in a crash. Motorcoach crashes are violent and cause 
passengers to be thrown around and frequently ejected. This is 
why the National Highway Traffic Safety Administration needs to 
be directed to issue basic safety standards in the next 2 years 
that will result in occupants having the safety protections 
that we now have in cars. And I am talking about basic systems 
like seatbelts, roof crush protection, anti-ejection window 
glazing and rollover prevention technology.
    The motorcoach industry's gold-plated cost figures 
circulating around Capitol Hill for safety improvements 
required in H.R. 873 are wildly inflated, unreliable and 
undocumented. Actually, the cost of equipping new motorcoaches 
with the safety improvements required in the Motorcoach 
Enhanced Safety Act will cost less than a dime per passenger. 
Who in this hearing room today would not pay an extra dime to 
protect their child or parent or spouse in a crash?
    In closing, I urge you to pass the Motorcoach Enhanced 
Safety Act, and thank you for the opportunity to testify.
    Mr. Mica. Thank you, and I want to thank all of our 
witnesses for their testimony and recommendations. And we will 
start questioning. I will begin with a few questions of my own 
and then we will yield to other Members.
    Well, again, I think what we are trying to do here is see 
what the missing pieces are to making certain that we have the 
very best legislation in place, best regulation, where we are 
going to regulate, best cooperation from the States and private 
industry.
    I heard first from our Federal Motor Carrier Safety 
Administrator a list of recommendations that have been 
suggested, and we heard other recommendations from other 
panelists. There are issues with just about all of these and, 
for example, if we start with the en route inspections, and I 
think there were restrictions put under the last 6-year 
authorization that do inhibit some of the en route inspections 
and I think the thought there was you inspect the bus either 
before people get on it or at the end and maybe not unless 
there was a serious indication that there was some problem en 
route you wouldn't shut down the service.
    We probably could tighten that up some.
    I think part of the problem starts even before that, Mr. 
DeFazio spoke about it, others have spoken about it, is getting 
a hand on these rogue operators, people who don't comply, the 
changing the name of the operation over the Internet. We have 
seen that in other industries too, where bad players, you try 
to build a mousetrap to catch the rats and they find some other 
way to get to the cheese whether it is in the passenger bus 
operations or in other endeavors.
    I guess I go back to the very basic involvement of Federal 
Motor Carrier Safety Administration in reviewing these folks in 
the time also that we have. Now, I guess what is it, 18 months 
they can actually start operations before they get some of that 
inspection? Is that correct?
    Ms. Ferro. That is correct. It is 18 months for new 
entrants before they receive their authority, but for 
motorcoach passengers, we set a standard of an inspection or of 
a safety review of that carrier within 9 months of their first 
receiving their authority for motorcoach operators.
    Mr. Mica. So your recommendation is that before they start 
service, they should have that certification?
    Ms. Ferro. That is correct.
    Mr. Mica. Now, someone else is talking about a review of 
their capability, if it could be done by, you know, you have 
what, 1,080 employees with FTEs full-time equivalent employees, 
and I believe that the division is about 800 in the field, and 
maybe 200-some in Washington.
    That is approximate.
    But many of the inspections are done or enforcement is done 
at the State level, is that also not correct?
    Ms. Ferro. That is correct, yes.
    Mr. Mica. So, and I know the Administration has recommended 
additional positions in Washington. Sometimes, though, from a 
practical standpoint, it is better to empower State folks who 
are closer, as far as enforcement and regulation. What would 
you think of--well, obviously you are recommending more Federal 
employees. Is there any mix or pre-review or audit that could 
be done do you think that would enhance, again, the 
performance?
    The other thing, too, is the bad actors, I have heard of 
games and other industries, they go through an inspection and 
then the good tires come off and they put them on another 
vehicle, or the drivers that they list aren't the drivers that 
drive and keeping up with that. How do we get did the best 
enforcement other than--this is a tough question for you, maybe 
I should ask others--other than just with the Feds. Are there 
other things that we can require sort of on the spot that would 
do a good job, too?
    Ms. Ferro. Yes, if I might jump in, I think you have framed 
the question very well in the context of rogue operators and en 
route inspections. A very significant challenge in the 
destination-origination inspection model is that rogue 
operators don't necessarily have prescheduled sites where we 
would know where their destination is or where they are 
originating the trip. So it is very valuable to have the 
concept of en route inspections.
    Most of those carriers will operate on main corridors. Law 
enforcement would have very clear guidelines on to when and 
where it is safe to pull a motorcoach carrier aside in an area 
where passengers have safe disembarkment and an opportunity for 
another bus to come pick them up.
    In other words, multifold, number one, additional 
inspection activity, as Advocates indicated, creates additional 
data in our measurement system and identifies the behavior of 
carriers. Rogue carriers aren't necessarily going to comply 
with the standard of an origin and a destination that is fixed.
    Mr. Mica. Well, again, where you are carrying passengers, 
though, it is a little bit unique. I mean, we don't inspect the 
planes en route and pull them over to the side or parachute the 
passengers out while we do an inspection, FAA inspection. The 
presumption is that that plane should be inspected before it 
ever takes off and carries a passenger, same thing with Amtrak 
and others that don't meet safety standards.
    We are not pulling the train over, everybody disembark on 
the side, the track, and we will do a quick FRA inspection or 
FTA inspection. Again, you want a practical solution.
    Ms. Ferro. That is right.
    Mr. Mica. Well, I am trying to stop them, I think with Mr. 
DeFazio, from getting in business in the first place and 
staying. When I ask the staff how many operators do we have and 
they say Federal Motor Carrier Safety Administration can't tell 
us, because it is a revolving and evolving number the way 
things are set up now and people get into business by various 
means, again, they are circumventing the provisions that we 
have.
    How do we get a handle on that from the very beginning?
    Ms. Ferro. Well, again, perhaps the most efficient model is 
to combine the roadside inspection activity that is already 
under way where we have 12,000 strong State law enforcement 
across the country who are trained commercial vehicle, 
complemented by the new entrant grant program that is in 
existence today in the context of a pre-authority safety audit 
by a cadre both of State and Federal inspectors.
    And then, lastly, I will say with our fiscal year 2012 
budget request, we include an additional $20 million in State 
grants, again in the context of strengthening the compliance 
safety accountability component of these programs. So, in terms 
of what is the most efficient model, really it is taking part 
of all three of those components, utilizing what we already 
have and boots on the ground, but utilizing it more 
effectively.
    Mr. Mica. Well, another thing that I usually favor is tough 
enforcement. The $25,000 fine is a stiff fine compared to 
$2,000. What does the bus association, American Bus Association 
feel about that?
    Mr. Pantuso. When it comes to more enforcement, Mr. 
Chairman, I don't think anything can be second. We are 
certainly in favor of anything that gets these bad operators 
off the road. We are also in favor of more inspections. You 
know, one of the ways to do that, that we have discussed in the 
past, is giving more resources to FMCSA. Not only increasing 
their budget, but also taking those companies that are already 
undergoing Department of Defense inspections, about 400 or 500 
of them, and put them off to the side. They are already being 
inspected. Inspections by DOD almost the same as FMCSA's, some 
would even say it is more rigorous. But why have them re-
inspected again, a month later or a year later by the same 
State or Federal inspection system when they have already been 
looked at very, very rigorously?
    Mr. Mica. Well, I think I will never forget the testimony 
we had in one of our field hearings where a small family 
operator, a husband and wife of, actually, a trucking firm, I 
think, in this case, and the wife gave testimony--was that in 
Arkansas--it might have been, we did a number of hearings. But 
the wife had compiled a list of all the agencies that their 
little two-person firm, husband and wife, had to comply with. 
And she read that thing, it must have taken her 5 minutes to 
read all the agencies and regs she had to deal with. And then 
after she got through with that, then they cited all the taxes 
and all the fees that they had to pay. It was quite an eye 
opener.
    And the problem we have in dividing the economic pie in 
Congress or in any legislative body is how much regulation, 
taxation, law, impositions do you put on businesses? I know it 
is easier for a big player maybe that is on the stock exchange 
to stay in business, and we want everyone to comply as far as 
safety. But we also have to balance a small operator and give 
them some shot. And sometimes folks are trying to eliminate 
some of the competition, again, through over regulation of an 
industry. So we do have that balance to keep in mind.
    Thank you, again, Jackie Gillan, for your testimony. A 
number of your recommendations we are considering, and I hope 
that through better inspections and better defined authority 
requirements on safety equipment, things of that sort, that we 
can have safer buses and better passenger bus safety. So, thank 
you. You don't have to comment. We just appreciate your 
advocacy.
    Let me yield now, if I may, to the ranking member, Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Both to Ms. Ferro and 
Major Palmer. You were both pretty emphatic about en route 
inspections. How would you solve this problem that people are 
putting up--danger, safety, inconvenience? How could we solve 
the en route problem, because it seems to me that is critical 
for these gypsy operators? I mean, they have no fixed place of 
business, they have a post office box somewhere, you know. So 
how would you do it?
    Ms. Ferro. Well, I think Major Palmer will provide better 
detail, but clearly we set guidelines in terms of where and 
when and what conditions need to exist in order for that bus to 
be pulled over in a safe place. There is a suggestion to 
consider something like business continuity insurance 
requirement for motorcoach operators so they would be required 
to provide another bus to come to the location in order to move 
passengers safely away if, in fact, that bus is put out of 
service.
    So there are provisions like that to ensure the safety and 
safe passage of the passengers. But in terms of process I would 
defer to Major Palmer.
    Mr. DeFazio. Major.
    Mr. Palmer. Yes, sir, Mr. Ranking Member, that is 
absolutely correct. I really don't know the numbers but I can 
tell you in Texas, for example, we have policies and procedures 
in place already. So even under current regulation, if you stop 
an en route bus for, you know, a serious safety violation, we 
have procedures in place that--the utmost importance, when we 
stop a bus, wherever it is at, is the safety of the passengers 
and the driver and also our enforcement officer. We don't want 
to put them in any harm's way any more than we would want to 
put passengers.
    So, for example, depending on where it was and for whatever 
reason that bus was stopped, if it was deemed, you know, 
unsafe, then we would escort that bus to a safe location and 
inspect it there to ensure that the passengers are well taken 
care of. Typically a very quick screening or even a driver 
inspection, you know, you are talking maybe 10 or 15 minutes to 
be able to do that typically, and we would focus on those 
efforts.
    You know, it has been the late nineties since I inspected a 
bus, but I know that when I would stop a bus roadside back then 
one of the first things I would do after I made the initial 
contact with that driver is I would address the passengers, 
because the passengers are, like, what's going on?
    And what I found historically is that the passengers were 
very appreciative when we did take that time, when you tell 
them what you are looking for and about the safety aspects, 
they encourage that.
    So we would have specific procedures in place, and that is 
something that FMCSA could provide leadership on and CVSA 
specifically would be able to provide that, you know, we have 
operational policies that all the States agree to through our 
MOUs and we could also enhance that enforcement that way.
    Mr. DeFazio. Sure. I mean, if a bus were speeding you can 
stop them, right?
    Mr. Palmer. Yes.
    Mr. DeFazio. If a truck is speeding, you can stop it. I 
mean, we did have this elderly person who drove into the back 
of the bus, clearly not good driving on that person's part. So 
to say, gee, we shouldn't have any capability of pulling people 
over because every once in a while someone who is asleep, on 
their cell phone, or incompetent is going to drive into it, I 
mean, this is a problem. And in my State, if your patrol car is 
here and the bus is there, and it is a two-lane or a three-lane 
highway, you are required to leave the lane empty and move to 
the left.
    Mr. Palmer. Same here.
    Mr. DeFazio. There are ways to protect the safety of those 
people for a short stop and then if there is a problem get them 
off the highway.
    But I think having an absolute prohibition only favors the 
people who do not have a fixed base of operation. There is no 
way to get them. Where are you going to get them when they stop 
somewhere in downtown New York, which changes every day 
wherever they are going to drop people off or wherever they are 
going. So I think opposing this entirely is not reasonable and 
would urge the association in saying that there should be no 
capability, think about how we can get at it again.
    How do we get at the bad actors who aren't in your 
association that we want to get at, and this, I think, is the 
key. It was from both law enforcement and from the 
Administrator, it was key. And I think we need to modify that 
provision of the law.
    The other thing would be State inspections. I see here in 
the ABA testimony that you say State inspection programs must 
be strengthened. Fewer than a dozen States have effective bus 
inspection programs and less than half have any program at all.
    Mr. Pantuso. That is correct. Mr. DeFazio, we just don't 
think there are enough States focusing on bus inspections. They 
are focusing on trucks, they are doing commercial vehicle 
inspections, they are doing an admirable job with the resources 
they have, but there aren't enough that are focused on bus 
operators.
    You know, we saw the accident that happened in New Jersey 
about 2 months ago. That company was supposedly based in 
Pennsylvania, but nobody ever saw them in Pennsylvania. The 
company that had the accident in Virginia was based in North 
Carolina, but they were based in a housing development. There 
was no sign of that bus or buses at that facility or at that 
house whatsoever. So we are concerned, we are concerned about 
the way some of these companies operate, as you are.
    We are also concerned, as you mentioned earlier about en 
route inspections, about the safety of the passengers. Most of 
our passengers are seniors or they are children. We also have 
passengers with disabilities who are on the coach. We just need 
to make sure whatever change there is allows for the 
accommodation of those passengers.
    Mr. DeFazio. And for those, basically, operating out of a 
housing development or a post office box, it seems to me that 
requiring an annual inspection by each State of these, of each 
vehicle every year, would that be an unreasonable burden?
    Mr. Pantuso. It would not be unreasonable. I think 
inspectors need to go into those facilities and look at not 
only the facilities, but those vehicles as well.
    Mr. Parra. I agree.
    Mr. DeFazio. OK. And that would also get at some of these 
people. It could be kind of like, you know, this is a little 
different, but with the Coast Guard--I live on a boat here. And 
you can get the Coast Guard Auxiliary to certify your boat on 
an annual basis. And it is very improbable that they will do a 
random boarding to do a safety inspection if you have a current 
sticker showing that you were inspected.
    So if we did do annual inspections and people had some sort 
of a decal--although obviously those things can be 
counterfeited, then that would potentially, I mean that would 
be someone that the police would be much less likely to look at 
as someone who needs an en route inspection, it seems to me.
    So, I mean, it seems to me some way of getting the States 
to do this, incenting them to do it and requiring them to do 
it, and some sort of a process. And then perhaps, and I will 
take it one step further. What if you had to annually show it. 
Now you go one time to FMCSA, pay $300, and it is good forever.
    Why wouldn't you say, OK, on an annual basis you have to 
show that your vehicle has been inspected or we will suspend 
that authority? Mr. Pantuso.
    Mr. Pantuso. Mr. DeFazio, I would just say as we look at 
the new entrant program, we think that $300 is not enough. It 
costs $350 to get a hot dog vendor's license on the streets of 
Washington, DC. Yet we are allowing people to come into the 
business who are going to be carrying upwards of 50-plus people 
at a time for only $300.
    Mr. Mica. Right.
    Mr. Pantuso. We certainly think there should be a higher 
bar of entry. And if it is a higher amount, those funds can be 
used to fund these pre-inspections that we are talking about.
    Mr. DeFazio. Got a number in mind?
    Mr. Pantuso. It could be a $1,000, it could be $2,000. It 
has got to be a reasonable number so that it can't create a 
barrier to entry. It is, as was described earlier, a mom and 
pop small business.
    We want to encourage that, but at the same time we want to 
make sure people coming in have got the wherewithal to maintain 
their equipment. And if they don't have more than $300, I 
question how they can do that down the road.
    Mr. DeFazio. Mr. Parra, what do you think of that?
    Mr. Parra. We don't have any objection to raising the bar. 
We just want to make sure that the bar is reasonable. You know, 
if it is $500 to $1,000, that is reasonable. But we want to 
make sure, however, that it isn't a barrier because these 
companies create jobs, they are good for the economic base of 
wherever they are.
    Mr. DeFazio. I got that, but I am glad you agree. To the 
Administrator, then, do you have the authority to do that or is 
that statutory?
    Ms. Ferro. Currently it is statutory, and we would propose, 
again, in our technical assistance increasing the limit and 
keep in mind also it is a one-time fee.
    Mr. DeFazio. Right, OK. So that seems like we have some 
consensus on that and it is hopefully something we could put in 
the bill. So a requirement on States for inspections, a higher 
one-time fee for registration which could help fund some of the 
safety and doing the pre-inspections.
    And then I will see if I can get one step further, you 
know, the chairman referenced airlines. Well, when we do 
airlines, we require that the operator actually be certified, 
and I have been here long enough that I remember when we threw 
Frank Lorenzo out of the industry. So, the question would be 
could we require--we talk about background checks and medical 
certificates and all of that--could we have background checks 
for operators because that way we could get at this phantom 
problem because we know this person, they had a company that 
violated the law, they are not a qualified operator to start 
another company with a different name and run those buses.
    Could we have something like that? Yes?
    Ms. Ferro. Yes, indeed, we could, in terms of liability and 
responsibility for principals who have already been identified 
as unsafe, as reincarnated that they could be barred in some 
regard from operating or----
    Mr. DeFazio. Can you do that administratively or do you 
need statutory authority?
    Ms. Ferro. We cannot do that. We would need statutory.
    Mr. DeFazio. You need statutory authority. Well, I would 
hope we could provide that too and obviously it would be used 
only in extreme cases, but some of these people are bad, repeat 
offenders and we want to stamp them out here. I mean, what we 
are going to do is provide more business for the good 
operators.
    With that, thank you, Mr. Chairman, I think there are quite 
a few things we could do statutorily to help here.
    Mr. Mica. Thank you. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. Thank you all for your 
testimony. Ms. Ferro, the private over-the-road bus industry 
provides approximately 750 million passenger trips annually. 
How safe is the motorcoach industry compared to other modes of 
transportation?
    Ms. Ferro. Sir, is that question for me?
    Mr. Coble. Yes.
    Ms. Ferro. Again, I think we have agreed--we agree with 
many of the other speakers that it is among the safest. We are 
somewhat limited in our inspection data on the industry writ 
large by virtue of this inspection restriction that the 
enforcement is currently under. But, yes, generally in terms of 
the number of crashes they are very low.
    Mr. Coble. And I realize accidents are inevitable, they are 
going to occur. But do you attribute anything specifically, any 
shortcoming to the recent motorcoach accidents, Ms. Ferro?
    Ms. Ferro. Let me just clarify, again, the vast majority of 
the industry is operating very effectively and these are small 
operators who have found a way to make safety and profitability 
go hand in hand and be highly complementary, those individual 
owner operators, small business owners.
    In regard to the recent crash, again, we are in the midst 
of the investigation, but at the outset we can see that the 
facility with which some of the bad actors move equipment and 
drivers among companies with valid DOT numbers is one of the 
loopholes, in our perspective. We need stronger leasing 
regulation, which is something that is within FMCSA's authority 
that we need to proceed with, as well as stronger tools to 
prohibit reincarnation on a more effective level than we can 
today.
    Mr. Coble. I thank you for that.
    Ms. Gillan. Mr. Coble, could I just add to that? I just 
wanted to say that motorcoach crashes have increased 
dramatically and we have many, many more people taking them. 
And, unfortunately, our safety systems are not adequate.
    So, while, yes, it is a relatively safe mode of 
transportation, we have this double standard where we have zero 
tolerance for aviation crashes even though we now have as many 
people using motorcoaches and we have hundreds of people dying. 
Already this year, 27 people have been killed and hundreds have 
been injured in 11 motorcoach crashes.
    Mr. Coble. I thank you for that.
    Major Palmer, distinguish for me, if you will, the 
difference between en route bus inspections and strike force 
operations. And in terms of time and money, which of the two 
serve us better?
    Mr. Palmer. Well, they are both unique in their own right. 
They both accomplish, they ultimately accomplish inspections, 
but they do it in a different way. The en route inspection is 
something that, it is a surprise. I mean, it is not something 
that you can prepare for.
    I mean, the good carriers out there don't have an issue. 
The ones that don't, they don't have time to prepare or change 
out some equipment or make some quick fixes to get by for a 
day.
    The distant--most of the strike forces that are done now 
are related to they are either going to be some type of 
imminent hazard violation involved before they are stopped, but 
mostly they are actually destination inspections, either origin 
or where they are going to end up.
    Mr. Coble. Well, are strike force inspections given an 
advance notice; are they surprised?
    Mr. Palmer. They can be both. There is surprise at the 
beginning, but once the first group of buses get there to the 
location and we start inspecting them, then the surprise is 
gone. So then, then other folks can find out that, hey, that's 
where we are at.
    But they both have, they both truly have their benefit. It 
is just that you are isolated to a particular location. You are 
also at the mercy, so to say, of either a business, whether it 
be somebody like SeaWorld or Fiesta, Texas, or some other venue 
or the actual passenger carrier company, whether they would let 
us come to their facility and do inspections. So that is one of 
the downsides to the origin and destination.
    Mr. Coble. I got you. Thank you, sir. Thank you all for 
your testimony.
    Mr. Mica. Would the gentleman yield? I just have one quick 
question for the Administrator.
    Mr. Coble. I yield to the chairman.
    Mr. Mica. Now, it is my understanding that you grant the 
operating authority for all of these buses, and it is my 
understanding that the DOT gave operating authority to Sky 
Express, WorldWide Travel and Super Luxury Tours operating 
authority of DOT, and you get that little number that they put 
on the side, you gave all of those, right? Those were the ones 
involved in--but then after the incidents you withdrew that 
authority.
    Ms. Ferro. That is correct. Both, all three of those 
carriers had passenger carrier authority prior to our vetting 
program, and all three have been shut down, that is correct.
    Mr. Mica. Well, again, that answers my question, but I am 
concerned that it didn't happen in reverse order.
    Mr. Coble. I reclaim and yield back, Mr. Chairman.
    Mr. Mica. Thank you . Let me yield to Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Ms. Ferro, first of all, in your testimony on page 3, you 
reference a new program Think Safety, Every Trip, Every Time. 
And you talk about the fact that this is available online. What 
other process do you have in place for consumers to know about 
this, because, to be frank with you, this seems a little 
unrealistic.
    I was recently in New York. I bought a ticket for the Loop 
trip, and I mean, I didn't go online and I am a fairly 
informed, I think, consumer. So what else are you doing besides 
this to communicate with people?
    Ms. Ferro. We have several strategies. One is to just make 
sure people know that there is safety information available on 
our Web site about carriers and some of the trade associations 
also provide links to individual carriers' safety data so that 
customers themselves can link in and understand that they can 
think safety every trip every time.
    Ms. Richardson. OK, but other than Web sites, what process 
do you have for the average consumer? In the testimony today it 
was spoken about that you are talking about seniors and people 
who are riding who are not going on the Web site. Do you have 
any plan, any process, people call a number, is there something 
available in bus areas that they have to post? What other 
aggressive things have you done and, if not, it is OK, we just 
need to know where we are.
    Ms. Ferro. Two areas in particular. There are van operators 
and the whole population of the faith-based community and 
others who utilize the 16 passenger vans are a core 
constituency to whom we have actively reached out in the past. 
With regard to motorcoach operations, again, it is through our 
Web site, it is through this particular campaign that the 
Secretary just launched recently.
    But I would add, very importantly, it is the proposal 
through our technical assistance to allow us to regulate 
brokers of passenger tickets; that is, those who sell tickets 
online, those who tell tickets through brokerage and travel 
services.
    Ms. Richardson. I don't think you are understanding my 
question. Maybe it is my fault, maybe I am not clearly stating 
it. The question I am asking you, if I am an average consumer, 
I go to buy a ticket for a motorcoach and I walk up to 
Greyhound Lines or New York Loop trips.
    How do I know what to look for in this particular 
motorcoach to know that it is safe, or you know, that they 
pass, that they have a decal or, you know, that they are 
approved by the Department of Transportation? Is there any 
system that you have in place to communicate to the average 
consumer who walks up--I am not talking about someone who is 
using a Web site--who walks up. Do we have any communication in 
place?
    Ms. Ferro. We do not today.
    Ms. Richardson. OK, thanks. I have got to keep going, I am 
sorry. I have only got 2\1/2\ minutes.
    Mr. Pantuso, you mention in your testimony that you think 
that there should be some sort of inquiry into the fitness of 
an operator prior to that individual being able to begin 
operations. Can you describe more of what you meant by that?
    Mr. Pantuso. Absolutely. Right now, as was pointed out, 
there is an 18-month window and FMCSA, we agree, has done a 
great job of shortening that window, I think Administrator 
Ferro said to 9 months.
    But we believe before the first passenger gets on board 
that somebody needs to go and look at that carrier and ask them 
where they will be getting the maintenance done when they begin 
operating, what kind of equipment are they going to operate, 
what kind of training do they have for their driver. How 
knowledgeable is the operator? Those kinds of questions that 
should be asked before the trip ever takes place and before 
somebody ever gets on board.
    Ms. Richardson. If there is no objection, would you mind 
submitting some of those helpful questions that you think 
should be considered for the record?
    Mr. Pantuso. I will, absolutely.
    Ms. Richardson. Thank you. I am not done yet. I am not done 
yet.
    Mr. Mica. OK.
    Ms. Richardson. A couple of other things I wanted to ask a 
few questions on.
    Ms. Administrator, there was talk that States use the same 
pool of funding for truck inspections as they do for bus 
inspections. And coming from a port community, I would find 
that to be very problematic.
    Are you opposed to identifying a specific percentage 
through legislation that was directed, or do you have a 
suggestion to of when to ensure that more motorcoaches are 
getting some of these funds to be inspected?
    Ms. Ferro. We are pleased to work with the committee on 
that recommendation. I will tell you today, through the annual 
commercial safety plan process, we require States to develop 
and include in their commercial vehicle safety plans, which is 
part of their annual grant application process, the 
identification of a region or State appropriate bus safety plan 
driven by what their bus safety data is saying, by their bus 
population.
    So it is incorporated into every State safety plan. It is 
less formal in some States, but it is very much a part of their 
activity. But, again, with regard to your proposal I will be 
happy to work with you on that.
    Ms. Richardson. OK, and my last question and the remainder 
that I will submit for the record is Mr. Pantuso said in his 
statement that dozens of States actually don't even have 
programs at all. How is it, is it your understanding, do you 
concur with that or did I accurately describe your statement?
    Mr. Pantuso. To clarify it, we don't see good bus 
inspection programs in a lot of States. We see some States that 
are very vigorous, Minnesota, Michigan does a great, great job. 
California does a great job, Massachusetts does a great job, 
New Jersey, Connecticut do great jobs. There are others that do 
very, very good jobs that are very, very rigorous. Yet at the 
same time we see a lot of States that just don't put enough 
emphasis on bus inspections.
    Ms. Richardson. So Ms. Ferro, are you working with the ABA?
    Ms. Ferro. We work closely with all of our stakeholders in 
this regard to identify the best strategies to root out the 
worst offenders.
    Ms. Richardson. So you are familiar with the ones that they 
feel are not appropriate?
    Ms. Ferro. Yes. We are familiar with that concern and it 
has been part and parcel over the past 4 years why the agency 
has incorporated an expectation of a bus safety action plan 
within each commercial safety plan submitted by the States. It 
is truly an evolving process, but it is part of our expectation 
for each State, and we work closely with those States on strike 
forces.
    Ms. Richardson. Thank you, Mr. Chairman. I yield back.
    Mr. Mica. I thank the gentlelady and I ask to grant 
unanimous consent that the recommendation made by the 
gentlelady of California be made part of the record.
    Mr. DeFazio asks unanimous consent that the record of 
today's hearing remain open for a period of 2 weeks for 
submission of information or response to questions by the 
committee.
    Without objection, so ordered.
    Let me now recognize the gentleman from Pennsylvania. I 
apologize for the delay. I know you wanted to get out by 4 
o'clock.
    Mr. Shuster.
    Mr. Shuster. Thank you very much, Mr. Chairman. I am a 
little confused on the roadside inspection, so I will direct 
the question to Ms. Ferro and Mr. Pantuso and see what your 
answers are, maybe you will clarify for me. Are we allowed to 
do, still allowed, or it is not prohibited to do roadside 
inspections?
    Ms. Ferro. Roadside inspections are authorized for high-
risk operator behavior. So if that driver is showing extreme 
rates of speed, unsafe operating behavior, if the bus is 
smoking, a wheel rim is on fire, something to that effect, they 
can certainly take action.
    Mr. Shuster. What about targeting a bus company that has 
shown that it has violated operations, safety rules, that 
wouldn't be imminent or a reason to target them?
    Ms. Ferro. That is not currently authored through the 
current statute, no.
    Mr. Shuster. Mr. Pantuso, your view on that?
    Mr. Pantuso. Congressman, I think, again, our concern goes 
back to the safety of the passengers. And if there is a change 
in the law, as long as the passengers are in some fashion 
protected, as long as the seniors, the students, those 
passengers with disabilities are taken care of and are not left 
on a hot bus or along the side of the road, there are adequate 
facilities, we are certainly fine with some modification to the 
existing law.
    Mr. Shuster. So if in the bill that I propose, if we put in 
there, allowing those bus operations that don't have a home 
base, is that something your industry or Mr. Parra would 
support, being able to inspect them on the road? Because 
obviously you, most of your operators, not all of your 
operators, that I know, have a home base and it is easy to get 
in there and--go ahead.
    Mr. Pantuso. That is a good question. Companies that 
operate from the curb, if you will, like some of the ones we 
have seen operating point to point service, or even charter 
buses, may not have a terminal where people go to get the bus 
but ultimately they have a home base and pickup points. There 
is an owner of that company and hopefully they have a garage, 
they have maintenance facilities or places where they take 
buses to be maintained, and they have training. So someplace 
there is a place to examine the paperwork and the buses.
    The other thing is that they all take passengers to the 
same place. They all, good and bad companies, go to the same 
destinations. If it is a charter or a tour, their passengers 
are going to the same place that good bus company passengers 
are traveling to. If it is a scheduled service operation, they 
are coming to Washington, going to New York, they are doing 
other point-to-point destinations.
    So there is a destination, there is an origin, certainly if 
there is an opportunity to do inspections en route if the bus 
or the company is identified as unsafe and take care of the 
passengers. The passengers are the first and foremost concern.
    Mr. Shuster. Mr. Parra.
    Mr. Parra.  Yes. I would just add to that, and I would hope 
that if a company does have a marginal safety record that they 
would be stopped before they even got on the road, whether it 
would be closing them down. The CSA program, for example, right 
now, red flags those companies that may not have had an 
accident but, in fact, because of one of the five categories 
they are considered a risk. They have an alert listing next to 
their name.
    FMCSA will intercede at that point and hopefully when the 
carrier, in fact, has enough alerts on their listing that they 
would be stopped, prevented from operating. That is, to me, the 
best way to catch them, as opposed to trying to get them on the 
road.
    Mr. Shuster. Ms. Ferro.
    Ms. Ferro. Yes, I appreciate Mr. Parra's point. The 
challenge is that these rogue operators are the very ones that 
never would have been inspected because we don't always know 
where their origin or destination is. They are stopping at 
empty strip shopping sort of abandoned sites, large parking 
lots, areas that may be Map Quested, but are no fixed termini 
in terms of a tourist destination or a casino of some sort. So, 
again, it is this very sort of population that we don't have 
inspection data on so we wouldn't see them as a flag in the 
SMS.
    Mr. Shuster. But as Mr. Pantuso said, they start somewhere. 
I mean, they have got some sort of home base, even if very 
small. Major, you look like you are ready.
    Mr. Palmer. Yes, if I may add, I can give you an example in 
Texas. In the Houston area, we have some of these operators 
that literally the only way we can sometimes figure out where 
they are at or where they are going to pick up or come out of 
is we go to certain areas and we look for fliers. And the 
fliers tell them where to pick them up at, and that is what is 
one of the major challenges, and that is happening in Houston, 
Texas.
    And the other thing is that in relationship to specific 
legal language about, you know, who the en route inspection 
would be applied to, it would be very difficult. And to us, 
from a State perspective, that is more of a policy issue and 
that could be a policy at the FMCSA level. At the very least 
you would see the States would implement certain policies to 
ensure the safety of the passengers, because that is the bottom 
line. We want them to be safe.
    Mr. Shuster. Just so I understand, Ms. Ferro. If you can't 
get them en route but can you at the beginning and at their 
destination, you can inspect them at both places?
    Ms. Ferro. That is correct, that is correct.
    Mr. Shuster. OK, all right. Thank you very much. I yield 
back.
    Mr. Mica. I thank the gentleman. The gentleman from 
Indiana, Mr. Bucshon.
    Dr. Bucshon. Thank you, Mr. Chairman. Ms. Ferro, I have a 
couple of questions related to budgetary process.
    Do you know what your budget was in 2008?
    Ms. Ferro. I do.
    Dr. Bucshon. Can you tell me?
    Ms. Ferro. Yes, sir. We had $300 million in grant 
authority, State grant authority, and I believe it was $220 or 
$230 million in operating revenue.
    Dr. Bucshon. So ballpark, $530 million.
    Ms. Ferro. $530 million.
    Dr. Bucshon. $530 million. And how about 2010?
    Ms. Ferro. 2010 we were at $320 million in grants and $250 
million in our--$246 million in our actual, so that is about 
$556 million.
    Dr. Bucshon. Yes. You can add faster than me.
    OK. And then the request for this year, the 2012 budget is, 
for the total?
    Ms. Ferro. Yes, the request for our 2012 budget is $50 
million more, $20 million of that for State grants and $30 
million for operations, predominantly additional folks in the 
field and systems investment. So it is about 100 positions and 
an additional $50 million.
    Dr. Bucshon. Well, my concern is in a time when, you know, 
we are expanding spending at the Federal level almost 
exponentially, compared to 2008, you know, and this year, you 
know, the 2012 budget, I am trying to figure out in my own mind 
exactly why, if in 2008, you know, it seemed like what you were 
doing was adequate, but every year it seems like every agency 
in the Federal Government, not just yours, continues to ask for 
more money. And we haverecently, I had bus crashes in 2011 
which it didn't seem like the increased amount of money that 
you had from 2008 to 2010 really made any difference.
    So in my own mind I am trying to justify exactly why that 
would be. And it seems to me that it might be more or a better 
thing to do to maybe transfer more of the money that you have 
allocated from the Federal rollover to the States so that we 
can have a more pointed inspection programming at the States 
rather than continuing to increase our budget at the Federal 
level.
    Now what do you think about that idea?
    Ms. Ferro. Well, sir, I certainly defer to the wisdom of 
the committee. I will say that the investment in FMCSA, which 
is a relatively new agency, and the shape of what it means to 
have the proper regulatory and enforcement structure over the 
motor carrier industry is, frankly, still being formed. It is 
an agency that was spun off of Federal Highways a little over 
10 years ago.
    With regard to the investment that is proposed, again, it 
is specific to boots on the ground, either through the State 
grants or our own field system. And one of the challenges that 
has been identified with the last crash has to do with are we 
getting to our thorough inspections that we call compliance 
reviews of the high-risk carriers quickly enough? And that is 
always a resource issue.
    Dr. Bucshon. Yes, I am just responding somewhat to the 
unfair characterization of, you know, trying to control the 
budget and the Ryan budget, and it seems that a lot of folks 
want to say that if we go back to a spending level that we had 
just a few years ago that that is--these are draconian, 
dramatic cuts that are going to significantly impinge on our 
ability to run your organization and others, and I would argue 
that that is not true. So I wanted to just clarify exactly what 
you are planning to do.
    How many people do you have working for you, do you know?
    Ms. Ferro. We currently have 1,090.
    Dr. Bucshon. And what are all those, what is the breakdown 
on what those folks do? Are they all here in Washington? What 
do they do.
    Ms. Ferro. No, no, no. 800 of them are in the field. We 
have division offices in every State. We have both a division 
administrator, as well as is safety investigators, as well as--
--
    Dr. Bucshon. Let's break down how many administrators 
versus investigators?
    Ms. Ferro. Well, there is one division administrator for 
each State. And investigators are driven by the size of the 
motor carrier population in that State, as well as the 
magnitude of the crash history and elsewhere. Again, out of 
that 800, roughly 500 are dedicated to investigation and 
inspection activity.
    We also have four regional service centers which process. 
Each investigation has the risk of prompting a legal action by 
a carrier, which may be an appeal, which may be related to the 
result of the inspection or investigation itself. So there is 
the, what we call mission critical support associated with our 
work, which has to do with lawyers as well as, pardon me, you 
know in some cases attorneys, litigation attorneys as well as 
our system support.
    Let me clarify, I apologize. We have, out of the numbers I 
cited, 400 investigators and 250 inspectors along our southern 
border out of that 800, and then there are additional, again, 
support personnel and auditors.
    Dr. Bucshon. Thank you. I yield back.
    Mr. Mica. I thank the gentleman.
    Mr. Duncan, welcome, and you are recognized.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and I 
don't intend to ask any questions, because I just was able to 
get here a few minutes ago. I have read key portions of the 
testimony, though, but I just want to say this, I know that Mr. 
Pantuso's organization has, I think, 800 members and Mr. 
Parra's organization 1,200 members. And I think what that says 
to us is that this, fortunately, is an industry still with 
mostly very small and medium-sized businesses.
    I have noticed in almost every industry that becomes very 
highly regulated or overly regulated it ends up in the hands of 
a few big giants. And I hope that we don't go overboard in 
reaction to a couple of bad operators. I don't have any 
problems with coming down very hard on the rogue or the very 
bad operators.
    But when I was in law practice, I represented a small, one 
of my clients was a small bus company that had three drivers. 
The owner of the company had driven, I think, it was over 2 
million miles at the time I represented him without an accident 
and his other two drivers had driven well over a million miles 
without an accident. As far as I know, they never had any kind 
of accident that was their fault at all. And that was a good 
company, and it was a very, as you could tell, a very small 
business.
    So I appreciate the work that these companies do. They 
provide a very, very important service to the people of this 
Nation and especially to lower and middle-income people.
    So let's be very careful in what we do and let's work to do 
what we need to do, but be very careful that we don't run out 
the little guys or make it very hard for new people to come 
into the business because of two or three companies that have 
messed up.
    Thank you very much.
    Mr. Mica. I thank the gentleman from Tennessee. Let's go 
back now. We have gone through all of the members on the panel, 
and we will now yield back to Mr. DeFazio for additional 
questions, our ranking member.
    Mr. DeFazio. Thank you, Mr. Chairman. I am pleased that 
Chairman Duncan was able to have an opportunity to review some 
of the testimony, and I would agree with his sentiments, which 
is we do not want, we are not proposing to regulate those who 
are doing a good job in unreasonable ways.
    We have had some consensus on the fees that are charged for 
entry from both the associations, the possibility of raising 
those fees to a reasonable level, but wouldn't bar entry but 
would also help better fund the inspection certification 
program. We had discussion of certifying operators so we can 
basically, when you get a bad operator, it sticks with them, 
even though they might come up with a new corporate entity or a 
new spiffy name on a Web site for their curb-to-curb service.
    And, you know, that, I think, could be helpful. We had some 
discussion, although there isn't agreement, but there is some 
opening, I think with Mr. Shuster's comments on what you do en 
route versus how you could get at carriers who don't have 
really a fixed place of operations, and then the State 
inspection problem, which again, we had some consensus on where 
the States aren't doing their job to certify the buses.
    Just one or two other quick questions. I don't understand 
in Administrator Ferro's testimony, it says, ``revise current 
law to ensure driver's CDL can be suspended or revoked for drug 
and alcohol-related offenses committed in noncommercial 
vehicles.''
    I thought that already was allowed. We were looking at the 
statute here.
    Ms. Ferro. Right now most of those offenses--it is funny, 
actually I saw that same point I think that is actually a 
misprint because I agree currently for serious offenses we have 
the authority to require States to disqualify.
    To clarify the particular provision we are looking for, 
when we issue an out-of-service order on a driver, there is no 
connection between our action and the State CDL, and we feel 
there needs to be an action. Otherwise, really, the driver has 
no, there is no harm, no foul. And the driver may not pay the 
fine. If there is a fine, another employer might hire that 
driver because there is no think between that driver and their 
authority to operate a commercial vehicle.
    Mr. DeFazio. OK. So right now even though you may suspend 
or bar them, the States are not required to follow suit?
    Ms. Ferro. That is correct.
    Mr. DeFazio. I think we had talked about this with 
trucking, where we have people who sort of hop States----
    Ms. Ferro. That is correct.
    Mr. DeFazio. When they have had serious problems and we 
have talked about having a unified database so we can keep 
track of people, and is there a requirement on the trucking 
side that States revoke a CDL?
    Ms. Ferro. In terms of--only for State convictions and 
for--on a commercial operator--let me clarify--for sufficient 
serious violations a State is required to disqualify that 
driver from holding their CDL, but a direct link for certain 
violations or an out-of-service order is not necessarily in 
that list of serious violations.
    Mr. DeFazio. OK, I would appreciate seeing some language on 
that so we can better----
    Ms. Ferro. We will. If I can just clarify the drug and 
alcohol piece, for positive tests on a drug or alcohol test, 
there is no link to the individual CDL. So that randomized 
process of drug and alcohol testing for which we are currently 
advancing a clearinghouse, should a driver test positive today 
or in the future, there is no link between that and the 
driver's CDL status.
    Mr. DeFazio. OK. That is certainly something to think about 
how you would deal with that.
    Ms. Ferro. That is correct.
    Mr. DeFazio. Yes, we don't want people--and that would be 
for someone who is actually operating and failed a test while 
operating?
    Ms. Ferro. That is correct.
    Mr. DeFazio. And there is no way to say isn't that person 
put out of service at that point if they test positive for 
alcohol?
    Ms. Ferro. The driver may be put out of service but, again, 
if it is a positive test after a crash, and it is not related 
directly to the CDL--if I may, let me go ahead and provide 
language before I dig myself a hole on that one.
    Mr. DeFazio. Yes, that would be OK. And the one other thing 
on your penalty that again is statutory for passenger carriers 
that attempt to operate without U.S. DOT authority. So these 
are people who didn't even pay the $300 and initially qualify? 
These are just total rogues? I mean, they are just out there 
driving around?
    Ms. Ferro. It is that population as well as those we might 
have shut down and resumed operations.
    Mr. DeFazio. Yes.
    Ms. Ferro. In other words, those who we have removed their 
authority to operate, and they have resumed operations 
regardless. So it is both populations.
    Mr. DeFazio. Right, OK. And again I think we had some 
consensus that perhaps that fine for those kinds of people 
could be raised from both associations and discussed what would 
be a reasonable level of fine. But we certainly want to 
discourage those kinds of people. Again, we want to focus on 
the people that are good and encourage them to do better, and 
we want to get these other people out.
    Ms. Gillan. Congressman DeFazio.
    Mr. DeFazio. Yes.
    Ms. Gillan. Advocates would also recommend that you look at 
criminal penalties for reincarnated carriers and people that 
are operating without sufficient operating authority, because 
clearly the financial penalties are not enough, you know, to 
persuade these people that, you know, they shouldn't be going 
back into business. So if you had criminal penalties, I think 
that really increases the stakes and I think that may get their 
attention if they thought they might be going to jail by doing 
something like this, putting so many people at risk.
    Mr. DeFazio. Yes, I would have to think about that. The key 
thing about it is if you go criminal, then we get a referral to 
the Judiciary Committee, and that is kind of bureaucratic. And 
beyond that the U.S. Attorneys generally, they don't want--I 
mean, if it involves someone who has actually had serious 
infractions that led to injury or death or something, then 
perhaps they would pursue it. But normally they wouldn't be 
very interested in pursuing it, so we would have to kind of 
qualify it maybe and think about how we might do that, and then 
I would be open to suggestions.
    Administrator.
    Ms. Ferro. If I might mention two other strategies that are 
core to this and, again, they recognize that small operators, 
independent business owners who are doing it right have every 
reason to continue operating correctly. And one is this 
authority to regulate brokers. As long as passengers who are 
buying tickets, whether it is through the web or through a site 
at a curbside, if there is no requirement on those brokers to 
disclose who they are selling tickets for and conceivably 
provide some sort of a link to the safety information on that 
carrier, then passengers can continue to really buy tickets 
blindly.
    Furthermore, they buy tickets thinking that the seller has 
a connection and some responsibility for the quality of the 
operations. The passengers we are seeing today who have lost 
their tickets, by virtue of the companies we shut down, have no 
recourse other than going through some State consumer 
protection agency.
    So we would recommend, we have authority over the brokers 
of every other kind of commercial movement, the sale of that. 
We would encourage the authority to have some level of 
requirements on brokers of passenger tickets.
    Mr. DeFazio. So you have, like you have a requirement over 
freight brokers, for instance.
    Ms. Ferro. Yes, household goods brokers.
    Mr. DeFazio. Moving, storage, those things?
    Ms. Ferro. Yes, correct.
    Mr. DeFazio. OK, so this is the only area where you don't 
have that authority?
    Ms. Ferro. Correct. And we are just asking for full 
disclosure.
    Mr. DeFazio. Well, again, I would like to see a suggestion 
there on how that--and do either of the associations have any 
insight on that?
    Mr. Parra.  Mr. DeFazio, we have had a concern about 
brokers for a long time. They have no skin in the game and we 
have fought very hard to ensure that consumers work directly 
with motorcoach operators and bypass the middlemen, as we call 
them.
    Our concern with any kind of registration would, in effect, 
give them some level of legitimacy, which we don't believe they 
should have.
    So we are sort of torn. We understand the concern with 
brokers and share that concern, but we don't want to give them 
a level of legitimacy that would make someone feel comfortable 
that they are dealing with somebody that is reputable because 
they are, quote, unquote, registered by the FMCSA.
    Mr. DeFazio. OK. Mr. Pantuso.
    Mr. Pantuso. You know, the devil is always in the details, 
Mr. DeFazio. And certainly as you are talking about brokers, as 
we sit here, the kind of broker that was selling tickets for 
the company that had the accident in Virginia, those are the 
kinds of brokers I think we are talking about.
    By the same token, a lot of the industry buy and sell bus 
services from one another. Companies are leasing buses from 
each other if their capacity is full and they need to get a bus 
from someone else. Tour operators hire buses. So how that 
broker is defined is a key question. But certainly the brokers 
we are talking about here today, we would certainly be in favor 
of regulating those brokers.
    Mr. DeFazio. Well, if we are talking about freight 
brokerage they are required to have bonding.
    Ms. Ferro. That is correct.
    Mr. DeFazio. I mean, maybe that is something--at least then 
in this case, there would be some potential recourse for people 
who bought tickets through a broker, then they would have 
someplace to go and file a claim against the bond or whatever. 
Maybe something along those lines would help to some degree.
    Any suggestions you have regarding that would be welcome. 
So thank you. Thank you, Mr. Chairman. I think this has been 
very helpful. I think I find substantial grounds for some 
modest improvements in law here that will get at the bad 
actors, and I would welcome those actions by the committee. 
Thank you, Mr. Chairman.
    Mr. Mica. I thank the ranking member. He has my assurance, 
and we have been talking in between the testimony here in 
looking at the provisions that we intend to put in the next 6-
year authorization that will strengthen our ability to deal 
with the problems that we have heard. One fatality is too many, 
which I said at the beginning.
    I have learned some things here, too, and let me clarify as 
we close, the Federal Government now gives, as far as motor 
vehicle safety operations grants, all but two States are 
recipients of those funds; is that correct?
    Ms. Ferro. All States receive motor carrier assistance.
    Mr. Mica. They are all now receiving.
    Ms. Ferro. All. Two are at--receive half of the full 
amount.
    Mr. Mica. Because they do not meet the Federal standard?
    Ms. Ferro. Precisely.
    Mr. Mica. I discussed with Mr. DeFazio, Florida some time 
ago had a limited enforcement operation and we found that, 
actually, their State law was not compliant with the Federal 
regs and we were having a rash of truck accidents. So we went 
back to the State legislators, and they cooperated and 
upgraded. Now they get the full amount.
    But my point here though is we are providing funding, but--
and talking about the ticket brokering, by the time somebody is 
buying a ticket, that is way down the pike from where all this 
problem and responsibility starts. I mean, if you are arriving, 
getting on a bus and it has a DOT license number such and such 
or operator, carrier, whatever number and DOT has initially 
certified that in some way, the public doesn't know, Members of 
Congress don't know what that entails. But there should be some 
responsibility to make certain that you have the very best 
operators possible, not pulling the certificate after they have 
killed a host of people.
    And even, I mean, even if you control--the American Bus 
Association may control 60 percent of the buses, but I ask this 
question, one of the worst accidents occurred with one of your 
members who was debarred from your membership after the 
accident, so that is late in the game.
    But if we are putting Federal money into State enforcement, 
the other thing is most of the activities are now around truck 
and highway safety issues. And we had testimony here today that 
only 12 States actually are taking active interest, we heard 
some anecdotal information about the poor level of operations 
as far as bus passenger safety enforcement. So that has got to 
change. We are going to have to make a change there. I think 
Mr. DeFazio and I agree on that. We have to have some better 
assurances, both from DOT in that initial issuance of a license 
or operating certification.
    And then further down the pike and at each level.
    Enforcement is so important, I don't think even if I had 
gotten 1,080 Federal officials, I am never going to be able to 
handle what needs to be done in the States and localities on 
the road. So we have to empower them to do this.
    The other thing, too, is stopping the bus on the highway. I 
just have great concern, maybe some of the provisions we put in 
law were good, but, we may need a different approach, again, as 
far as some of these random inspections. But the last thing I 
want to see is on the interstate, a major highway, is bus 
passengers unloaded or some kind of inspection.
    I believe before a passenger gets on that bus that there 
has to be some assurance that that is safe. And for heaven's 
sakes, we know that most of these operators are small 
operators, many are in the gaming industry, what type of 
enforcement rocket science is it to inspect the bus before this 
ever leaves the station, people know where they are leaving 
from or their departure site or as it arrives.
    So I have concerns about how we do this from a practical 
standpoint, and I don't want to put more people at risk in the 
process.
    Competition is important, and we want to make certain a 
little carrier has a shot at this too.
    This isn't just about preserving the bottom line for major 
carriers in this, and we will have to look at some innovative 
ways maybe the proposal with third-party inspections, some way 
of getting more inspection for less dollars and less 
bureaucracy. That might be an innovative approach from 
Washington. But maybe we can do that too.
    And then I want to go back and look at NTSB recommendations 
we really didn't get into in detail. We want to make certain 
that we don't leave those recommendations on the shelf.
    I know in other industries and modes of transportation, we 
have done that in the past to make certain that there is some 
follow through and compliance when we have seen a mistake it 
shouldn't, or a gross error, it shouldn't happen again. So, 
again, I appreciate your testimony today, your participation. 
This is a quickly held hearing, but we are looking at all of 
the provisions that we are trying to incorporate into a 6-year 
major piece of legislation. We thought it would be fitting that 
we review this in a bipartisan manner and try to come up with, 
again, the best possible provisions to ensure that the 
traveling public, particularly bus passengers, have every 
element of safety in place and that we responsibly provide for 
that and by our legislation or by the regulation allow the 
agency to help do its job better, and also for the States that 
end up with a lot of the responsibility in this process.
    So, again, I thank the witnesses.
    We will leave the record open for 2 weeks as the unanimous 
request by Mr. DeFazio has been passed, and we may be 
submitting additional questions to the witnesses for response 
for and to be made part of the official record of proceedings 
today.
    There being no further business to come before the 
Transportation and Infrastructure Committee of the U.S. House, 
this meeting is adjourned. Thank you.
    [Whereupon, at 4:31 p.m., the committee was adjourned.]

</pre></body></html>
